Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                Reporting Entity: Department of State - OIG
              Month Ending Date: 03/31/2010

                                                        Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        Recovery Act TAFS        Award Type        US Indicator   Total Obligations   Total Gross      Direct or    Ordering TAFS
No.                                                                                                               Outlays       Reimbursable
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US        $37,608.12         $27,610
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  1                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US         $137,618
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  2                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US          $20,000           $2,835
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  3                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US         $108,308
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  4                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US         $118,799
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  5                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US          $95,137
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  6                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US         $164,159
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  7                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \          Contracts and         Y - US          $88,574
                                  2010) State - OIG -     Orders (including
                                  Recovery Act             modifications)
  8                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \        Contracts and         Y - US         $72,249
                                  2010) State - OIG -   Orders (including
                                  Recovery Act           modifications)
  9                                                                                                                         Direct
      Department of State - OIG   (19-0530 2009 \        Contracts and         Y - US         $95,137
                                  2010) State - OIG -   Orders (including
                                  Recovery Act           modifications)
                                                                                                                            Direct
      Department of State - OIG   (19-0530 2009 \        Contracts and         Y - US         $95,137
                                  2010) State - OIG -   Orders (including
                                  Recovery Act           modifications)
10                                                                                                                          Direct

                                        Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        FY 2009 Non-         Total FY 2009      Total FY 2009   FY 2010 Non-    Total FY 2010    Total FY 2010
No.                               Recovery Act TAFS       Obligations       Gross Outlays Recovery Act TAFS Obligations      Gross Outlays
      Department of State - OIG   (19-0529 2009)                 $59,536         $59,536 (19-0529 2010)           $27,789            $27,789
 1                                State - OIG                                            State - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 3/31/2010

                           FTE Working on Recovery
                                                                                                                                 Testimonies:
      Fiscal Year             2009              2010                  Cumulative
       Newly Hired FTE
                             0.00                  0.00                  0.00                                            Provided (monthly):        0
           (cumulative):

FTE Funded by Recovery
                             0.08                  0.03                  0.11                                          Provided (cumulative):       0
 Act Funds (cumulative):

    FTE Not Funded by
    Recovery Act Funds       0.50                  0.10                  0.60
         (cumulative):

            Complaints                 Whistleblower Reprisal Allegations                   Investigations           Audits / Inspections / Evaluations /         Training / Outreach
           Monthly Data                          Monthly Data                               Monthly Data                        Monthly Data                         Monthly Data
                                                                                                                                                                  Training Sessions
              Received:       0                           Received:      0           Opened (this month):     0        Initiated (this month):      5                                   0
                                                                                                                                                                         Provided:
                                                                                   Active (as of the end of          In Process (as of the end
                                                          Accepted:      0                                    0                                     7          Individuals Trained:     0
                                                                                               the month):                     of the month):
                                                                                                                             Completed Final
                                                                                                                                                                  Hours of Training
                                                                                         Pending Decision:    0               Published Work        0                                   0
                                                                                                                                                                         Provided:
                                                                                                                                     Products:
                                                                                                                              Priority Interim
                                                                                                                                                                 Outreach Sessions
                                                                                    Closed without Action:    0               Published Work        0                                   2
                                                                                                                                                                       Conducted:
                                                                                                                                     Products:
                                                                                             Accepted for                  Unpublished Work
                                                                                                              0                                     0
                                                                                             Prosecution:                          Products*:
                                                                                      Prosecution Denied:     0
                                                                                   Referred for Alternative
                                                                                                              0
                                                                                                Resolution:

 Cumulative Data Since 2/17/2009       Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                           Completed Final
                                                                                                                                                                  Training Sessions
              Received:       3                           Received:      1          Closed without Action:    0             Published Work       4                                      1
                                                                                                                                                                         Provided:
                                                                                                                                  Products:
                                                                                                                            Priority Interim
                                                                                              Accepted for
                                                          Accepted:      0                                    0             Published Work       0             Individuals Trained:     20
                                                                                              Prosecution:
                                                                                                                                  Products:
                                                                                                                         Unpublished Work                         Hours of Training
                                                                                      Prosecution Denied:     0                                  1                                      40
                                                                                                                                 Products*:                              Provided:

                                                                                   Referred for Alternative                                                      Outreach Sessions
                                                                                                              0            Cumulative Total:        5                                   2
                                                                                                Resolution:                                                            Conducted:

                                                                                        Cumulative Total:     0
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 03/31/2010

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Held entrance conferences for five performance audits being conducted by two Independent Public Auditing firms for
         1
                     Department programs funded by ARRA:
         2             * Worldwide Computer Security System Enhancements
         3             * Data Center Program
         4             * Planned Improvements to the Department's Mobile Computing Program
         5             * Tools to Guard Against and Track Cyber Attacks
         6             * Bureau of Diplomatic Security Hard Skills Training Center
                     Conducted outreach programs with representatives of Department domestic bureaus and overseas posts on ARRA
         7
                     oversight and reporting
         8
         9
        10

       No.                               OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Oversee seven audits of Department ARRA-funded IT projects by Independent Public Auditing firms
                     Initiated OIG-staffed Review of Replacing Overseas Diplomatic Telephone Systems and Providing Secure
         2
                     Communications Equipment
                     Initiated OIG-staffed Review of Replacing Aging Desktop Computers at Diplomatic Facilities and Providing Secure
         3
                     Computer Systems
         4
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 03/31/2010
           Date:

                                                                                         TRAINING ACTIVITIES
                                                                                                                                                 Hours of
                                                                                           Training                   Length of                  Training                 Presentation    Average
                                                 Target                                                   Date of                  Number of                   Cost of
      No.              Type of Training                            Title of Training    Location (City,                Training                  Provided                  with Other    Evaluation
                                                Audience                                                  Training                Participants                 Training
                                                                                            State)                     (hours)                   (length x                    OIGs         Rating
                                                                                                                                               participants)
       1                                                                                                                                                   0
       2                                                                                                                                                   0
       3                                                                                                                                                   0
       4                                                                                                                                                   0
       5                                                                                                                                                   0
       6                                                                                                                                                   0
       7                                                                                                                                                   0
       8                                                                                                                                                   0
       9                                                                                                                                                   0
      10                                                                                                                                                   0
      11                                                                                                                                                   0
      12                                                                                                                                                   0
      13                                                                                                                                                   0
      14                                                                                                                                                   0
      15                                                                                                                                                   0
                                                                                                                       TOTAL                 0             0

                                              OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                              Outreach
                    Organization to which                         Description of                           Date of
      No.                                      Represented                              Location (City,
                      Outreach Provided                               Outreach                            Outreach
                                                at Outreach                                 State)
                                                  Session
                 Department of State domestic                 ARRA oversight and
       1                                                   10                          Arlington, VA      3/10/2010
                 bureaus                                      reporting
                 Department of State domestic                   ARRA oversight and
       2                                                   15                          Arlington, VA      3/31/2010
                 bureaus and overseas posts                     reporting
       3
       4
       5
       6
       7
       8
       9
      10
      11
      12
      13
      14
      15
